Annual Report, “Federal Information Security Management Act: Fiscal Year 2006 Report
from the Office of Inspector General” (IG-06-021, September 28, 2006)

This annual report, submitted as a memorandum from the Inspector General to the NASA
Administrator, provides the Office of Management and Budget (OMB) with our
independent assessment of NASA’s information technology (IT) security posture. We
recommended that NASA identify its IT security program as a material weakness
reportable in accordance with the Federal Managers’ Financial Integrity Act. We made
that recommendation because of IT security weaknesses that we identified during this
fiscal year, many of which were similar to those we identified in previous years.
Examples of recurring weaknesses included patch management, monitoring of critical
system activities, backup of systems, and certification of IT systems. In addition, several
NASA Centers have experienced recent IT security incidents, which the NASA Office of
Inspector General is currently investigating. Although our audit and investigation work
reflects challenges to and recurring weaknesses in NASA’s IT security program, the
Agency has taken steps to bolster its IT security defenses during FY 2006 and has also
launched several strategic initiatives to improve its IT security. In addition, the Agency
has mandated a comprehensive, NASA-wide IT security review that should result in
recommendations that, if implemented, will improve the Agency’s IT security posture.

The OMB’s FY 2006 Report to Congress on Implementation of The Federal Information
Security Management Act of 2002 includes information provided by our report.
However, as an “Intra-Agency Memorandum,” our report is considered exempt from
release under the Freedom of Information Act (FOIA); it also contains NASA Information
Technology/Internal Systems Data that is not routinely released under FOIA. To submit
a FOIA request, see the online guide.
